No. 19-910

IN THE

ibupreme Court of tbe Ziattitert iptateo
K. G. S., INDIVIDUALLY AND AS GUARDIAN AND NEXT
FRIEND OF BABY DOE, A MINOR CHILD,
Petitioner,
v.
FACEBOOK, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Alabama

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,975 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 23, 2020.

Colin CaseylIogan
Wilson-Epes Printing Co., Inc.

